         SENSITIVE BUT UNCLASSIFIED

        United States Department of State
      and the Broadcasting Board of Governors
                Office of Inspector General




                Memorandum

              Report of Inspection


     Summary of FY 2004

Information Systems Security

           Issues

    Report Number IT-I-05-01, March 2005




                               IMPORTANT NOTICE
  This report is intended solely for the official use of the Department of State or the
  Broadcasting Board of Governors, or any agency or organization receiving a copy
  directly from the Office of Inspector General. No secondary distribution may be
  made, in whole or in part, outside the Department of State or the Broadcasting
  Board of Governors, by them or by other agencies or organizations, without prior
  authorization by the Inspector General. Public availability of the document will
  be determined by the Inspector General under the U.S. Code, 5 U.S.C. 552.
  Improper disclosure of this report may result in criminal, civil, or administrative
  penalties.



          SENSITIVE BUT UNCLASSIFIED

                            TABLE OF CONTENTS


S UMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

GLOBAL SYSTEMS SECURITY ISSUES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                        3

     Information Systems Security Officer Program . . . . . . . . . . . . . . . . . . . . . .                               3

     Information Management and ISSO Oversight . . . . . . . . . . . . . . . . . . . . . .                                  4

     Patch Management Procedures . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                      6

     Planning Documentation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                 7

     Local Change Control Board . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                   8

REGIONAL BUREAU-SPECIFIC OBSERVATIONS . . . . . . . . . . . . . . . . . . . . . . . . .                                   11

     Bureau of African Affairs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              11

     Bureau of European and Eurasian Affairs . . . . . . . . . . . . . . . . . . . . . . . . .                            12

     Bureau of Near Eastern Affairs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                   12

     Bureau of East Asian and Pacific Affairs . . . . . . . . . . . . . . . . . . . . . . . . . .                         13

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

R ECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

APPENDIX A - 2004 IT SECURITY INSPECTIONS . . . . . . . . . . . . . . . . . . . . . . . . 19

                    SENSITIVE BUT UNCLASSIFIED





                                       SUMMARY

    The end of another year presents an opportunity for the Office of Inspector
General (OIG) to report the most important information systems security concerns
identified during the FY 2004 inspections. OIG inspected more than 40 posts and
bureaus, gaining valuable insight into the Department of State’s ongoing informa-
tion systems security effort. Modernizing the global information technology (IT)
systems, a move championed by Secretary Colin L. Powell and executed by the
Chief Information Officer (CIO), is proving successful. Installing advanced
information systems, however, must be met with an equivalent advancement in
systems security. It is here where the Department can improve its performance.

     The inspections of FY 2004 uncovered systems security issues that cross
regional and bureau boundaries, allowing OIG to suggest several areas for improve-
ment Department-wide. The Information Systems Security Officer (ISSO) program
is struggling at several posts. Patch management procedures and other essential
emergency planning and recovery documentation are missing or inadequate. Sev-
eral change control boards (CCB) at posts are noncompliant with Department
guidelines.1 At the root of these and other problems, management’s guidance and
oversight of IT security practices needs improvement. OIG discusses these issues
below and also provides an overview of the issues specific to the bureaus inspected
in FY 2004.




1
 CCBs are local forums of IT staff and usually regional security officers (RSOs) who discuss software and
hardware issues at posts and approve use of nonstandard software to support post operations, when
fully justified.




OIG Report No. IT-I-05-0I, Summary of FY 2004 Information Systems Security Issues, March 2005               1 .

                    SENSITIVE BUT UNCLASSIFIED
      SENSITIVE BUT UNCLASSIFIED





2 .   OIG Report No. IT-I-05-01, Summary of FY 2004 Information Systems Security Issues, March 2005


      SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED





   GLOBAL SYSTEMS SECURITY ISSUES



INFORMATION SYSTEMS SECURITY OFFICER PROGRAM
    The ISSO program is struggling to take hold in many locations. Roughly a third
of the inspections reported shortcomings in the ISSO program, with many posts
having severe infractions.2 Common findings include the following:
    •	 failure to perform and document random checks of user libraries and
       mailboxes for classified material stored on unclassified systems, to include
       checks for unapproved material (11 inspections);
    •	 essential systems security documentation is missing or inadequate (15
       inspections);
    •	 users observed not locking workstations while away from their desk (five
       inspections);
    •	 inadequate communication among management, U.S. and foreign service
       national IT personnel, and RSOs (five inspections);
    •	 inadequate separation of duties among system managers, information
       management officers (IMOs), and ISSOs, leading to weak internal control
       of IT resources (11 inspections);
    •	 incomplete coordination between IT and human resource (HR) staff to
       deactivate or delete user accounts of departing employees, especially for
       users with multiple accounts and administrative rights;
    •	 a lack of proper enforcement not only of the policies in place, but also of
       management’s responsibility to ensure that ISSO functions are properly
       carried out; and
    •	 configuration settings that deviate from Department standards.




2
  A single inspection may include several geographic locations and include embassies and consulates gen-
eral, or offices in the Washington bureaus.



OIG Report No. IT-I-05-0I, Summary of FY 2004 Information Systems Security Issues, March 2005              3 .

                    SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED




          In accordance with Department requirements (12 FAM 600), the ISSO is
      responsible for implementing the Department’s information systems security
      program on all classified and unclassified automated information systems. He or
      she should advise the security officer on automated information systems security
      issues and work closely with the systems manager, other ISSOs, and the informa-
      tion programs officer. Throughout this process, the ISSO should ensure risk is
      mitigated to an acceptable level.

           Most posts understood the importance of improving their ISSO practices.
      However, frequently posts were aware of inadequacies but did not have the staff
      to fully support the ISSO program. Deficiencies in the ISSO program were gener-
      ally in two areas: (1) a lack of trained information systems security personnel, and
      (2) insufficient prioritization, guidance, oversight, and accountability from senior
      and middle management. It is the CIO’s responsibility to provide the ISSOs with
      proper guidance to carry out their work requirements. The Enterprise Network
      Management Office (ENM) is developing a toolset to automate many of the
      ISSO’s tasks. This is a welcome step to improve the program, but more must be
      done to fulfill the mandate issued more than four years ago to implement successful
      ISSO programs at every post (12 FAM 600).


         Recommendation 1: The Chief Information Officer must ensure that the
         information systems security officer’s duties and responsibilities are prioritized
         such that not fulfilling them translates into unacceptable performance for the
         information management officer and the information systems security officer.




      INFORMATION MANAGEMENT AND ISSO OVERSIGHT
          IMOs at several posts appear unaware of all their security responsibilities.
      These managers are tasked with creating successful ISSO programs through proper
      training, guidance, and accountability. Their position descriptions often lack
      specific details regarding required IT security responsibilities. A successful infor-
      mation management and systems security program at post translates into a success-
      ful embassy evaluation.

          Six inspections showed fragmentary or nonexistent work requirements for
      ISSOs. Eleven inspections revealed incomplete, nonexistent, or undocumented
      random checks of user libraries, documents, and mailboxes for unapproved



4 .            OIG Report No. IT-I-05-01, Summary of FY 2004 Information Systems Security Issues, March 2005


                SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




material or classified material on unclassified machines. In four instances, inappro-
priate sexual material was found. Another site had more than 50 gigabytes of
unapproved material on its servers, dramatically affecting backup times and
wasting valuable resources.

    Two sites had no ISSO program, in practice or in writing. Many other locations
were not training their security staff to perform the most basic ISSO duties. Nearly
every infraction was the result of inadequate training in or oversight of information
systems security practices. Successful security programs require fully trained
management and staff capable of the critical task of securing the Department’s
systems.

   Communication among IT personnel at posts could also improve. Inspections
showed numerous instances where problems could be avoided if IT staff had more
open lines of communication.

    The Department could benefit by drawing on the resources and success of the
embassies to pull up the constituent posts within their domain. Improved regional
support would also provide help to remote posts that need it but cannot justify
additional full-time personnel. This is especially true of posts in Africa, which are
not only short-handed, but whose less experienced specialists are required to
accomplish more work. If the Department cannot staff the numerous hard-to-fill
positions in a region, then it must increase the regional support to fill the gaps.
OIG expects to release a report in 2005 regarding the support provided by Regional
Information Management Centers (RIMC).

    Overall, the quality of information management and ISSO oversight at posts is
poor. The ISSO program at posts is lacking the adequate training and oversight of
information systems security practices needed to be effective.


   Recommendation 2: The Chief Information Officer should coordinate with
   the Director General to ensure that position descriptions for the information
   management officers include specific details regarding required information
   technology security responsibilities.




OIG Report No. IT-I-05-0I, Summary of FY 2004 Information Systems Security Issues, March 2005   5 .

                    SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED




           PATCH MANAGEMENT PROCEDURES
               Over time, most software is discovered to have flaws that, if not fixed, can
           leave a computer open to disruption or attack. Patches are released to fix these
           flaws, and they are a vital part in any effective information systems security effort.

               Six inspections revealed patch management procedures that do not comply with
           5 FAM 866. Patch management objectives must include: applying patches in a
           timely manner; proper documentation of patch status; coordination among IT staff,
           management, and users; and notices sent to the Department indicating compliance
           with these objectives.

                The Department is addressing patch management issues with mixed results. It
           has successfully deployed a tool that automates much of the patch application
           process. Posts, however, are not accessing the full potential of this tool. Some
           posts do not patch their systems regularly. Many posts still apply patches individu-
           ally and do not know how to automate this process, even though the training is
           available online. Recent statistics from ENM’s patch bulletin web site indicate a
           majority of posts are not installing patches, as shown in figure 1.




                           Figure 1: Patch Management at 274 Department Sites
            22.3% (61 sites)                                                               RED Status (not w ithin
                                                                                           operational tolerances)
                                                                                           YELLOW Status (borderline
                                                                                           tolerances)
                                                                                           GREEN Status (w ithin operational
      15.3% (42 sites)                                          62.4% (171 sites)          tolerances)




                               Source: http://enm.irm.state.gov (as of December 17, 2004).



               Some IT personnel abroad dispute these numbers and say that the reporting
           tool is flawed. Nevertheless, the numbers are consistent with OIG findings that
           patch management at posts needs marked improvement.



6 .                      OIG Report No. IT-I-05-01, Summary of FY 2004 Information Systems Security Issues, March 2005


                         SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




    Many reasons are given as to why patch management is unsuccessful thus far.
Many posts want the freedom to administer their systems as they see fit, rather than
having them remotely administered from Washington. Other posts cite a shortage
of staff, uninformed staff, and the continuous release of patches as contributing
factors. Regardless of the reason, the patch management status quo is not tenable.
A CIO initiative to enforce appropriate patch management procedures abroad
would substantially lessen vulnerabilities to the Department’s information systems.


   Recommendation 3: The Chief Information Officer should establish
   written guidance and procedures on what actions will be taken if overseas
   posts do not install the patches the Department releases.




PLANNING DOCUMENTATION
    Documenting procedures is a vital step in proper information systems manage-
ment. Often, having a recovery plan in place can reduce downtime from days to
hours or less in the event of a system failure. Documentation is also necessary for
budgeting and staffing reasons. Often, specialists are rotated into areas needing
immediate assistance, such as Embassy Baghdad and its supporting posts. They are
typically the Department’s most knowledgeable IT personnel, and their rotation
places acute shortages at home posts. Having written documentation noticeably
improves the learning curve for replacement specialists at post, saving valuable
time and money and ultimately providing better service. Moreover, not having this
basic paperwork shows that a post does not understand or is not following Depart-
ment procedures.

    During its inspections, OIG found many of the required post-specific docu-
ments either incomplete or nonexistent. Key documents include, but are not
limited, to the following:
    •	 Contingency Plans, which are designed to ensure continuity of operations
       under adverse conditions and should operate in conjunction with the
       Emergency Action Plan and with other posts, providing automated
       information systems backup processing capabilities. (13 inspections)
    •	 Information Systems Security Plans provide an overview of automated
       information systems security and the means for improving the protection
       of IT resources. They also delineate the responsibilities and expected
       behaviors of all individuals accessing the systems. (11 inspections)


OIG Report No. IT-I-05-0I, Summary of FY 2004 Information Systems Security Issues, March 2005   7 .

                    SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED




         •	 IT Budget Plans must include the planned life cycle of all Information
            Program Center assets and current and future IT projects and services.
            They should look to future IT needs and plan accordingly. (4 inspections)
         •	 Other such documents as topology maps, wiring diagrams, and patch
            management procedures must be current and tested frequently. (multiple
            inspections)
          Overall, nearly half of the inspections uncovered problems within documenta-
      tion.


         Recommendation 4: The Chief Information Officer should inform the
         posts and bureaus of the requirements for information systems documenta-
         tion and develop and implement procedures for verifying and validating that
         all requirements are met.




      LOCAL CHANGE CONTROL BOARD
          The local CCB provides a forum for IT staff and RSOs to discuss whether or
      not to allow new software or hardware onto the post’s IT systems. Though most
      posts have a local CCB, OIG found many were not fully cognizant of their role.
      OIG reminds bureaus that:

         1.	 posts are required to inform the Department regularly of their CCB deci-
             sions;

         2. 	 posts should inform users of CCB decisions, including any penalties for
              noncompliance; and

         3.	 as stated in 12 FAM 425 (a), RSOs play an integral part in systems security
             and must regularly work with ISSOs to form a cohesive security team at
             post.

          An additional concern is the growing use of Universal Serial Bus (USB) drives,
      also known as “pen” or “thumb” drives. A single USB drive may have a gigabyte or
      more of storage space, which is ample room to store unapproved software, inappro-
      priate material, classified material, or even an entire operating system undetectable
      by IT personnel. The Department currently defers to posts the choice to approve
      or disapprove the use of USB drives. This leads to different, even contradictory,
      policies at posts or even no policy at all.

8 .            OIG Report No. IT-I-05-01, Summary of FY 2004 Information Systems Security Issues, March 2005


                SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




    The Department should determine the appropriate use of USB drives, and OIG
advises the development of a Department-wide policy regarding their use.


   Recommendation 5: The Chief Information Officer should develop policy
   and implementing guidance on the use of Universal Serial Bus storage drives
   on all Department systems.


   In the interim, OIG urges local CCBs that currently use USB drives to establish
and enforce a USB drive policy, with input from the RSO.




OIG Report No. IT-I-05-0I, Summary of FY 2004 Information Systems Security Issues, March 2005   9 .

                    SENSITIVE BUT UNCLASSIFIED
       SENSITIVE BUT UNCLASSIFIED





10 .   OIG Report No. IT-I-05-01, Summary of FY 2004 Information Systems Security Issues, March 2005


       SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED





                 REGIONAL BUREAU-SPECIFIC
                      OBSERVATIONS


     This section highlights areas of concern within the bureaus OIG inspected
during FY 2004. Although each bureau had its own specific issues, such as power
outages, lack of training, unapproved Internet connections, and missing documen-
tation, OIG found that issues such as the deficiencies in the ISSO program as well
as shortages in personnel span across several bureaus.



BUREAU OF AFRICAN AFFAIRS
    Posts in Africa operate with a high number of first-tour officers and specialists,
including IMOs. Most posts are understaffed and lack sufficient IT training,
funding, and infrastructure. Positions are frequently difficult to fill and often
staffed, if at all, by inexperienced managers and specialists. For example, the IMO
position was vacant for nearly a year in Embassy Addis Ababa, and Embassy
Lesotho had no IMO. Temporary duty employees were often used to fill manage-
ment positions, but churning through managers often has negative results. Em-
bassy Asmara had six management officers in eight months, and Embassy Djibouti
had seven in three years. OIG addressed these concerns in May 2004.3

    Power outages are a regular event in Africa and have caused significant damage
to IT equipment at Embassies Addis Ababa and Mbabane. Although outages are to
be expected in underdeveloped areas, the Department should encourage all posts in
Africa to test and reevaluate the adequacy of uninterruptible power supplies, surge
suppression devices, and generators to avoid further damage to equipment. More
regional support would help. Additionally, replacement parts and technicians
should be available to repair dilapidated equipment in a timely manner.




3
    See Strengthening Leadership and Staffing at African Hardship Posts (ISP-I-04-54).



OIG Report No. IT-I-05-0I, Summary of FY 2004 Information Systems Security Issues, March 2005   11 .

                         SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED




       BUREAU OF EUROPEAN AND EURASIAN AFFAIRS
           European posts are among the best funded and well equipped in the Depart-
       ment. Despite this, many are not meeting their IT security and systems manage-
       ment responsibilities. Half of the European inspections in 2004 revealed notable
       deficiencies in their ISSO programs. A basic ISSO duty is to check and document
       the search for unapproved or inappropriate material. Embassies Athens, The
       Hague, Prague, Ankara, and Consulate General Istanbul did not perform this basic
       task. Management control of the ISSO program and site security needs improve-
       ment to ensure the proper oversight of IT practices.

           Department policy requires separation of duties in information systems man-
       agement. European posts, though largely cognizant of their ISSO duties, often
       claim that they are short-handed and cannot properly staff IT and ISSO positions.
       Thus, IT specialists perform both system management and systems security duties.
       This arrangement, though tolerable in small posts with a limited user base, is not
       acceptable in large posts critical to U.S.-European relations. Separating manage-
       ment and security provides vital checks and balances.

           As mentioned previously, posts must apply the Department’s approved patch
       across all Department software. (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
       (b) (2)(b) (2)(b) (2)(b) (2)(b) (2) .


       BUREAU OF NEAR EASTERN AFFAIRS
           The Bureau of Near Eastern Affairs (NEA) is struggling to realize the full
       potential of the ISSO program. The bureau’s ISSO, for example, claimed to work
       on ISSO-related duties for only 15 minutes a day. As a result, the inspection team
       found many problems with basic systems security, including:
       •	 users not given the required security briefing before account access, nor a
          yearly security refresher;
       •	 external Internet connections that were unapproved;
       •	 an acute lack of documentation of all kinds;
       •	 and configuration settings that differ from Department standards.



12 .            OIG Report No. IT-I-05-01, Summary of FY 2004 Information Systems Security Issues, March 2005


                 SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




   IT personnel in NEA thought that they were in general compliance with
Department security guidelines. This indicates a lack of training for IT and other
NEA staff. NEA told OIG that it is addressing the issues that OIG’s inspections
found.

    NEA posts abroad have many of the same problems facing the Department as
a whole. Posts are hampered by personnel shortages as staff are rotated to support
Embassy Baghdad. Four of the five inspections of NEA posts contain classified
IT findings. For more information, see the classified security reports for Embassies
Abu Dhabi, Doha, Kuwait, and Muscat.



BUREAU OF EAST ASIAN AND PACIFIC AFFAIRS
    The Bureau of East Asian and Pacific Affairs (EAP) is, like NEA, struggling to
meet the requirements of the ISSO program. EAP had two IT specialist vacancies
during the inspections, a common explanation for gaps in information systems
security. Essential planning and emergency recovery documentation was also
missing, as was the assignment of a qualified alternate ISSO. Patch management
procedures were also inadequate. Additional staffing and increased awareness of
the Department’s requirements should help alleviate these problems.

    EAP posts abroad experienced the same problems found throughout the
Department, including notable deficiencies in ISSO programs. One inspection
revealed a consulate general with no ISSO program, and another so weak that it
was de facto nonexistent.

    Many posts in this region are similar to those in Africa, where OIG said that
increased regional support could offset a lack of permanent IT specialists. This is
especially true in China.

    For more information systems security issues at EAP posts, please see the
classified security reports for RIMC Bangkok and Embassies Bangkok, Beijing,
Seoul, and Ulaanbataar.




OIG Report No. IT-I-05-0I, Summary of FY 2004 Information Systems Security Issues, March 2005   13 .

                    SENSITIVE BUT UNCLASSIFIED
       SENSITIVE BUT UNCLASSIFIED





14 .   OIG Report No. IT-I-05-01, Summary of FY 2004 Information Systems Security Issues, March 2005


       SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED





                                  CONCLUSION

    The continuing effort to modernize the Department’s information systems is
proving successful. An equal challenge, however, continues to be the proper
management and security of these advanced systems. OIG recognizes this chal-
lenge and commends the Department’s efforts thus far. Improvements in the ISSO
program, patch management and emergency documentation, local CCB operations,
and management and oversight of these areas will help provide the Department
with the means necessary to meet its information systems security challenges.




OIG Report No. IT-I-05-0I, Summary of FY 2004 Information Systems Security Issues, March 2005   15 .

                    SENSITIVE BUT UNCLASSIFIED
       SENSITIVE BUT UNCLASSIFIED





16 .   OIG Report No. IT-I-05-01, Summary of FY 2004 Information Systems Security Issues, March 2005


       SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED





                         RECOMMENDATIONS

Recommendation 1: The Chief Information Officer must ensure that the informa-
  tion systems security officer’s duties and responsibilities are prioritized such that
  not fulfilling them translates into unacceptable performance for the information
  management officer and the information systems security officer.

Recommendation 2: The Chief Information Officer should coordinate with the
  Director General to ensure that position descriptions for the information
  management officers include specific details regarding required information
  technology security responsibilities.

Recommendation 3: The Chief Information Officer should establish written
  guidance and procedures on what actions will be taken if overseas posts do not
  install the patches the Department releases.

Recommendation 4: The Chief Information Officer should inform the posts and
  bureaus of the requirements for information systems documentation and
  develop and implement procedures for verifying and validating that all require-
  ments are met.

Recommendation 5: The Chief Information Officer should develop policy and
  implementing guidance on the use of Universal Serial Bus storage drives on all
  Department systems.




OIG Report No. IT-I-05-0I, Summary of FY 2004 Information Systems Security Issues, March 2005   17 .

                    SENSITIVE BUT UNCLASSIFIED
       SENSITIVE BUT UNCLASSIFIED





18 .   OIG Report No. IT-I-05-01, Summary of FY 2004 Information Systems Security Issues, March 2005


       SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED





                                    APPENDIX A

                                  2004 IT Security Inspections



 Bureau of East Asian       Embassy Bangkok,           Embassy Kathmandu.         Embassy Ulaanbataar.
 and Pacinc Affairs         Thailand & Constituent     Nepal                      Mongolia
                            Posts

 Bureau of Educational      Bangkok Financial          Embassy Khartoum,          Embassy Yaounde,
 and Cultural Affairs       Service Center             Sudan                      Cameroon

 Bureau of international    Management                 Embassy Kuwait,            European Logistical
 lnfornlation Programs      Assessment Review          Kuwait                     Support OffiCI:,
                            (MAR) of Embassy                                      Antwerp, Bclgium
                            Bangui, Central African
                            Republic
 Bureau of Near Eastern     Embassy Beijing, China     Embassy Luxembourg,        U.S. Mission to the
 Affairs                    & Constituent Posts        Luxembourg                 European Union,
                                                                                  Brussels, Belgium
 Bureau of South Asian      Embassy Berlin,            Embassy Maseru,            U.S. Mission to the
 Affairs                    Gemlany & Constituent      Kingdom of Lesotho         North Atlantic Treaty
                            Posts                                                 Organization
 Compliance Follow<up       Embassy Brussels.          Embassy Mbabane.
 Review (CFR) Embassy       Belgium                    Swaziland
 Lisbon, Portugal &
 Ponta Delgada

 Embassy Abu Dhabi &        Embassy Colombo. Sri       Embassy Muscat. Oman
 CG Dubai, UAE              Lanka


 Embassy Addis Ababa,       Embassy Dhaka,             Embassy N'Djamena.
 Ethiopia                   Bangladesh                 Chad


 Embassy Amman,             MAR of Embassy Dili,       Embassy Nicosia.
 Jordan                     East Timor                 Cyprus


 Embassy Ankara.            Embassy Djibouti,          Embassy Prague, The
 Turkey & Constituent       Republic of Djibouti       Czech Republic
 Posts
 Embassy Asmara,            Embassy Doha, Qatar        Embassy Pretoria, South
 Entrea                                                Africa & Constituent
                                                       Posts
 Embassy Athens, Greece     Embassy The Ilague,        Embassy Seoul,
 & CG Thessaloniki          Netherlands                Republic of Korl:a




OIG Report No. IT-I-05-0I, Summary of FY 2004 Information Systems Security Issues, March 2005             19 .

                     SENSITIVE BUT UNCLASSIFIED
